X-

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RICHARD H. MORRISON - PETITIONER
(Your Name)
vs.
STATE OF FLORIDA - RESPONDENT(S)
PROOF OF SERVICE

I, RICHARD H. MORRISON, do swear or declare that on this date, NovemberJ£-3
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk of the Court: U.S. Supreme Court: One N.E. First Street; Washington. D.C. 20530; and
Honorable Ashley Moody, Attorney General Office: The Capitol. Suite PL-01: Tallahassee. FL

32399.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November X 3

2020.

(Signature)

